charge into a U.S. dollar amount. The conversion rate in U.S. dollars
will be either at the government-mandated rate or a wholesale
currency market rate determined by MasterCard for the processing
date on which the transaction is processed. The currency conversion
rate used by Mastercard on the processing date may differ from
the rate that would have been used on the purchase date or the
cardholder statement posting date.
Foreign Transaction Fee
A fee of 2% of the transaction amount in US Dollars will be assessed
on cross-border and international transactions. International
transactions include Internet transactions made when you are in the
United States, but the merchant processes the transaction in a foreign
country. Transactions acquired in U.S. territories, and transactions
originating on U.S. military bases, at U.S. embassies and at U.S.
consulates, are excluded from this fee.
Convenience Checks
You may access your credit line by writing checks provided by us for
that purpose. The checks will be honored and paid up to your credit
limit as long as the account is not in default. You may request a stop
payment on a convenience check by phone or in writing. We must
receive the request in time to afford us reasonable opportunity to act
upon it under the Credit Union’s rules. Oral or telephone requests to
stop payment must be confirmed by you in writing to us within 14
calendar days after your original request, and if not so confirmed,
such request will be considered to have lapsed after the 14-day
period. We can only honor a stop payment request for 12 months
from the date of request. You agree not to hold us responsible for any
claims or liabilities of payees or endorsers on convenience checks for
which you have requested payment stopped. You agree not to hold
us responsible for the misrouting or delay of a convenience check
due to markings placed on the check by you or a prior endorser that
obscure any depository endorsement placed by us or our agent.
We may recognize the signature of any borrower or authorized
user on this account as authorized to transact any business on the
account. Convenience checks cannot be used to pay any amount you
owe under this Agreement or under any other credit agreement or
account you have with us now or in the future. Convenience checks
are considered cash advances and accrue interest according to the
method described for cash advances under the “CALCULATION OF
FINANCE CHARGES” heading of this disclosure. Transactions made
using convenience checks do not earn Rewards points.
Default/Collection/Attorney’s Fees
You will be in default and understand that all loan credit under this
Agreement may be terminated if (1) you do not make periodic
payments as required by this Agreement, (2) you do not keep any
promise made in this Agreement or any other agreement with this
Credit Union, (3) any information that you give us to obtain a loan
advance is false, (4) any third party attempts by legal process to take
any property belonging to you, (5) you die, become insolvent or are
a party to any bankruptcy proceeding, or (6) as otherwise provided
in this Agreement. If you are in default, we may refuse to make
any further advances or refuse charge privileges to you and declare
all sums owed under this Agreement immediately due and payable.
We may accept late payments or partial payments without losing
any of our rights under this Agreement. You understand that if you
are in default, we may add to your unpaid balance any reasonable
attorney’s fees and court costs, all of which you agree to pay.

Waivers and Severability
We may waive or decline to enforce any of our rights under this
Agreement without affecting any of our other rights. Should
any provision of this Agreement be determined to be invalid or
unenforceable, that determination shall not affect the validity or
enforceability of any other provision.
Governing Law
This Agreement, your credit card line of credit, as well as our rights
and duties and your rights and duties regarding them, will be
governed by and interpreted in accordance with federal law to the
fullest extent possible and, to the extent federal law does not apply,
in accordance with California law, regardless of where you live and
use your credit card. This Agreement is made in California. All credit
will be extended from California, and all repayment must be made
in California.
Third Party/Mobile Devices
We may also permit you or any authorized user to load information
about your account onto third party/mobile devices (such as a
smartphone, tablet, or any other handheld or wearable communication
device that allows you to store or electronically present your account
information) that would enable you to make purchases or engage in
credit transactions for your account without needing to show your
credit card. You and we agree that any such use of your account will
be subject to all the terms and conditions contained in this agreement.
To the extent you do use a third party/mobile device to make a credit
transaction on your account, or load information about your account
onto any such device, you need to be aware that we do not control
the device and cannot guarantee the performance of either the device
or any third party.
Additionally:
• You agree to carefully protect the security of any devices
the same as you would your cash, checks, credit cards and
other valuable information. We encourage you to password
protect or lock your device to help prevent an unauthorized
person from using it. You agree to promptly report any loss
or theft to both us and the third party.
• You may incur third party fees related to engaging in a
transaction (such as mobile carrier data or messaging
charges).
• Credit transactions made through a third party/mobile
device may involve the electronic transmission of
information related to you or your account across wireless
or computer networks. Third parties, such as merchants,
card association networks, mobile carriers, mobile wallet
operators, and software application providers may use and
receive information in connection with a credit transaction.
Third parties may also receive information about your
mobile device when you use it to make a credit transaction.
• We may, at any time, partially or fully restrict your ability
to make credit transactions through a third party/mobile
device. You agree to notify us promptly if you remove or
want to remove your account information from any third
party/mobile device.
YOUR BILLING RIGHTS:
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.

What To Do If You Find a Mistake on Your Statement. If you think
there is an error on your statement, write to us at: SchoolsFirst FCU
P.O. BOX 11547, Santa Ana, CA 92711. You may also contact us on
our website at schoolsfirstFCU.org.
In your letter, give us the following information:
• Account Information: Your name and account number
• Dollar Amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:

• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing (or electronically).
You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What will Happen After We Receive Your Letter
When we receive your letter, we must do two things:

1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill
is correct.

correct the problem with the merchant, you may have the right not
to pay the remaining amount due on the purchase.
To use this right, the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note
neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with
a check that accesses your credit card account do not
qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing (or electronically) at the address
or website listed under ”What To Do If You Find a Mistake on
Your Statement”. While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an
amount and you do not pay we may report you as delinquent.

While we investigate whether or not there has been an error:

• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you
are responsible for the remainder of the balance.
• We can apply any unpaid amount against your credit limit.

SHARE-SECURED
MASTERCARD®
AGREEMENT AND
DISCLOSURE
STATEMENT

After we finish our investigation, one of two things will happen:

• If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to the
amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the
first $50 of the amount in question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your
Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card and you have tried in good faith to

April 30, 2021

M-133245

You agree to the following terms and conditions and any amendments
thereto.
Accepting This Agreement
Before you sign or use the SchoolsFirst Federal Credit Union
Mastercard® credit card issued to you, please read this Agreement
thoroughly, because by using the credit card you will be agreeing with
us to the terms and conditions stated in this Agreement. If you do
not wish to be bound by this Agreement, do not use the credit card
and contact us to let us know that you wish to cancel your credit card
account with us. If you have received a card or checks to access the
card account, destroy them.
Definitions
In this Agreement the words “you”, “your”, and “yours” mean each
and all of the person(s) who apply for and/or use the card, the words
“credit card” mean the SchoolsFirst Federal Credit Union Mastercard
credit card, and the words, “we”, “our”, “us”, and “Credit Union” mean
the SchoolsFirst Federal Credit Union.
Liability of All Cardholders and Authorized Users
You understand that you are liable for the payment of all sums
due under this Agreement. If there is more than one borrower or
authorized user on this account, each person, individually, and
all persons jointly are obligated to repay all sums due under this
Agreement. You agree that all statements made in your application
for your credit card were for the purpose of obtaining credit and are
true, correct, and complete to the best of your knowledge and belief.
Credit Limit
This Agreement establishes a credit card account for you with an open
end line of credit. Once your credit limit is established, a security
deposit in the amount of your credit limit will be held in a designated
share account. We have provided you with a separate written
disclosure stating the credit limit for purchases, balance transfers,
and cash advances on your account, and that disclosure is made a
part of this Agreement by this reference. Your monthly statements
will show the amount of credit available to you for purchases, balance
transfers, and cash advances as of the statement date. We will give
you written notice of any change in your credit limit. If your credit limit
is decreased for any reason, any subsequent request for a credit limit
increase will be subject to credit application and approval. You agree
not to use your account in any way which would make the unpaid
balance of your account exceed your credit limit. You also agree to
pay us the amount of any transactions on your account in excess of
your credit limit along with your regular minimum payment at your
next scheduled payment due date. Purchases, balance transfers, and
advances are subject to daily limits that may restrict the full use of
your credit limit.
Pledges of Shares
You grant us a consensual security interest in your account and have
pledged funds on deposit for your Share-Secured Mastercard credit
card in a designated share account to satisfy debts that are due us.
We reserve the right to exercise this pledge of share for liabilities
owed to us against the Share-Secured Mastercard credit card account
held by you individually or jointly with any other person(s) to the
fullest extent permitted by law.
Security
To secure your obligation, you grant us a security interest in your
designated share account at the Credit Union, under a SchoolsFirst
Federal Credit Union Mastercard Credit Card Security Agreement that
you have signed. The Security Agreement is incorporated into and made
part of this Agreement and Disclosure Statement by this reference.

Personal Identification Number
A Personal Identification Number (PIN) may be obtained by calling
866.955.1347. This PIN may be used by you with your credit card
to obtain a cash advance on your account at any Automated Teller
Machine (ATM) displaying the Mastercard logo. Please keep your PIN
confidential and do not write it on or keep it with your credit card.
Credit Information
You agree that we may re-examine and re-evaluate your
creditworthiness at any time. You authorize us to obtain, from time
to time, information from others, including, but not limited to credit
reporting agencies, concerning you and your credit accounts. You
also authorize us to respond to requests from others and to provide
information regarding the status and history of your account with us.
However, we are not obligated to release any such information to
anyone unless we are required by law to do so. You agree that we
have the right to refuse future advances under your line of credit or
reduce your credit limit upon re-examination and re-evaluation of your
creditworthiness, should your creditworthiness change significantly.
Change of Name, Address, Employment, Telephone
You agree to promptly report to us any change in your name, address,
employment, or telephone number.
Balance Transfers
Balance transfers are the transfer of balances from other lenders
to your SchoolsFirst FCU credit card and cannot be applied to any
amount you owe under any other credit agreement or account you
have with SchoolsFirst FCU.
Purchases/Balance Transfers/Cash Advances
You may access your line of credit by making a purchase at a
merchant’s location that accepts the credit card, by requesting a
Balance Transfer orally or electronically, or in writing, or by making
a cash advance. We will not be responsible or liable to you should
anyone refuse to accept or honor your card, or should anyone
retain your card and not return it to you. You may request cash
advances under this Agreement by writing a SchoolsFirst Federal
Credit Union convenience check; by making a written, telephone
or electronic request to us; or by requesting a cash advance at
a financial institution or an ATM that accepts the credit card. You
agree to repay all advances for purchases, balance transfers, and
cash advances made to you or at the request of a joint borrower or
authorized user under this Agreement, and you understand that all
purchases, balance transfers, and cash advances will be subject to
the terms of this Agreement. You agree not to request advances,
balance transfers, make purchases, or use your account in any way
that would make the unpaid balance of your account exceed your
credit limit. Cash advances cannot be used to pay any amount you
owe under this Agreement or under any other credit agreement or
account you have with us now or in the future.
Minimum Monthly Payments
You will receive a statement for each monthly billing period in which
your account has an outstanding or credit balance. The minimum
monthly payment on your account is calculated at 2% of the
statement balance or $25, whichever is greater. If your account
balance is greater than your limit or your account is past due, you
will be billed for the greater of: the minimum monthly payment; or
the past due amount; or the overlimit amount. If the account is not
paid down to the limit or below, the account is subject to closure.
The minimum monthly payment must be received at the payment
center on or before the payment due date reflected on the front of
your monthly billing statement or the payment may be considered

past due. Payments made in excess of the minimum payment will
be applied first to the balance with the highest interest rate, then
successively to each lower interest rate until the excess payment
amount is exhausted. If you have a credit balance on your account
due to merchant credits, adjustments or overpayments, we will
hold and apply this credit balance against future purchases and
cash advances, or refund it at your written request. An increase or
decrease in the Annual Percentage Rate may result in an increase or
decrease in your monthly payment.
Promise to Pay
You agree to pay us, at the payment address stated on the front
of your monthly billing statement, all sums which have been
accumulated on your account by you or others with your permission,
together with any finance charges, late charges and any other service
charges computed on your account as set forth in this Agreement.
Authorizations
Most transactions require approval of funds. Approvals result in
placing a hold against your credit limit. We may limit the number
or amount of approvals or purchases and advances per day or deny
transactions when we detect unusual or suspicious activity, even if
you have sufficient credit available. We are not liable for failing to
approve any transaction and we may, although we are not required
to, approve transactions above your available credit. We are not liable
if a merchant, financial institution, or ATM does not honor your card.
Membership Requirement
You must be a Member in good standing to be eligible for a credit
card with us. We may suspend card privileges, including closing your
account, if you do not maintain your Membership with us in good
standing.
Responsibility for Account
You agree to repay us according to the terms of this Agreement for
all purchases, balance transfers, advances, finance charges, fees and
collection costs, if any, arising from the use of this account by you or
any other person you permit to use your card and/or account (even if
that person exceeded the amount for which you gave permission). If
you decide to close your account, please notify us orally or in writing
and return all card(s) on the account. You remain liable for any
transactions to the account that we cannot prevent after you notify
us. Any person using the account and/or card is jointly and severally
responsible for all charges on the account.
Lost, Stolen or Unauthorized Use
It is important to continually monitor your monthly statements to
identify any unauthorized transactions. If your card is lost or stolen,
or you believe that someone has accessed or may access money
from your card without your permission, notify us immediately. If
you notice unauthorized or fraudulent activity on your card, notify
us immediately. Notify us at the phone number or address listed on
your statement under “How to Reach Us”. See Your Billing Rights for
further information. If your card is used fraudulently, you agree to
assist us in our investigation.
Annual Percentage Rate
This Agreement establishes the Annual Percentage Rate for
Purchases, Balance Transfers and Cash Advances under this credit
card program. We have provided you with a separate written
disclosure stating the Annual Percentage Rate that will apply to
purchases, balance transfers, and cash advances on your account.
That disclosure is made part of this Agreement by this reference.
The Annual Percentage Rate is currently fixed and will remain
fixed for a minimum of one-year after account opening. The Annual

Percentage Rate is subject to change thereafter. Should the Annual
Percentage Rate change, a 45-day Change in Terms Notice (CIT)
will be issued and balances resulting from charges incurred prior to
and up to 14 days after the issuance of the CIT will be protected
at the Annual Percentage Rate existing prior to the change to the
Annual Percentage Rate. This does not apply to the penalty Annual
Percentage Rate referenced on your disclosure. Note that an increase
in the Annual Percentage Rate may result in greater interest charges
and a larger monthly payment. The maximum Annual Percentage
Rate is 18.00%.
Annual Percentage Rate - Penalty Rate
If your credit card account is delinquent 60 days, we will increase
your Annual Percentage Rate on the entire balance to 17.90%. The
Penalty APR will continue to apply unless you make 6 consecutive
minimum payments when due (beginning with the billing cycle
immediately following the application of the Penalty APR) and do not
exceed your credit limit during that time period. If these requirements
are met, your credit card rate will be lowered to reflect your original
tier.
Monthly Periodic Rate
The Monthly Periodic Rate is determined by dividing the Annual
Percentage Rate by twelve (12 months in a year).
Calculation of Interest Charges
Interest Charges for each monthly billing cycle will be calculated
by multiplying the Average Adjusted Daily Balance by the Monthly
Periodic Rate. We will calculate your Average Adjusted Daily Balance
as follows: We take the outstanding balance (all amounts you owe)
at the start of the day. Then, in the sequence in which the amounts
post to your account, we add the amount(s) of all debits and subtract
the amount(s) of all payments and credits which post to your account
that day. After applying payments and credits, we subtract any
amount of late charge, interest charge, and any other charges that
remain unpaid.
The result is the adjusted daily balance for that day. We add together
all the adjusted daily balances for each day in the billing cycle and
divide the total by the number of days in the billing cycle. The result
is the Average Adjusted Daily Balance for that billing cycle.
Interest Charges are imposed only if you do not pay in full the new
balance for Purchases/Balance Transfers shown on your Periodic
Statement within 25 days of the end of the statement period.
However, interest charges will be assessed and will accrue on any
cash advance (see Purchases /Balance Transfers/Cash Advances)
from the date that such cash advance transaction is posted to your
account to the date the cash advance balance is paid in full or the
Statement Closing Date whichever comes first, even if payment of
the entire New Balance is received by us by the Payment Due Date.
In other words, there is no time period within which credit extended
to you by a cash advance may be repaid without incurring an interest
charge.
Late Charge
If the minimum payment due is not received by the Credit Union
within 15 days after the payment due date, a late charge of $25 will
be imposed.
Additional Fees and Service Charges
We may charge additional service charges for the following:
• Each draft copy that you request: $10
• Additional copies of your monthly billing statement: $2
(per statement)

• Any payment instrument or method including check, inperson, ACH or other electronic transaction returned to us
for any reason: $20
• Researching transactions occurring prior to your most
recent account statement: $20 per hour, minimum $20
• Convenience check stop payment: $15
• Balance transfer stop payment fee: $15
• Each request to have a credit card delivered by courier: $20
Change in Terms
This Agreement is the contract which applies to all transactions on
your Account, even though the sales, Cash Advance, credit, or other
documents you sign, agree to, or receive, may contain different
terms. We may amend, modify, add to, or delete from this Agreement
any term, condition, service, or feature at any time, including the
amount or calculation of INTEREST CHARGES. Unless we state
otherwise, the change will affect any unpaid balance outstanding
and any subsequent transactions. A notice will be mailed to your last
known mailing address or sent through email (if you have consented
to receive electronic communications) at least 45 days prior to the
effective date of the change as required by federal or other law. When
a notice of change in terms is required, it may be sent as late as the
effective date of the change when the change has been agreed to in
writing by you. Rates are based on approved credit.
Cancellation
You may cancel your card at any time in writing or over the phone.
Cancellation of the card will end all charging privileges. The balance
must be paid in full at the time of closure. Funds in the designated
share account may be used to pay off the balance. Any funds in
excess of the balance pay off will be returned to you. We have the
right to revoke your right to use the credit card at any time. We can
do this with or without cause and without giving you notice. We may
list revoked credit cards in a cancellation bulletin or otherwise inform
firms honoring the credit card that the credit card issued to you has
been revoked or cancelled. If we revoke the credit card or it expires,
we reserve the right to offset the remaining balance with the security
in the designated share account (See Pledges of Shares). Also, if a
firm that accepts the credit card asks you to surrender an expired
or revoked credit card, you must do so. You may not use the credit
card after it has expired or after it has been revoked. Cancellation or
revocation of your credit card will not affect your obligation to pay
any amounts that may be due under this Agreement.
Illegal Activity
Your Mastercard card may not be used for any illegal activity. Internet
gambling may be illegal in the jurisdiction in which you are located,
including the United States and its territories. Your card may only
be used for legal transactions. Display of a payment card logo by
an online merchant does not mean that Internet gambling or other
transactions are legal in the jurisdiction in which you are located. You
agree to repay, according to the terms of this Agreement, transactions
you initiate by use of your card, whether deemed legal or illegal.
Internet Transactions
Your Mastercard is automatically enrolled in the Mastercard 3-D
Secure program. 3-D Secure is designed as an additional layer of
security for online transactions when you use your credit card during
a card-not-present transaction. Your transaction is securely verified
in the background and there is nothing else for you to do.
Foreign Currency Transactions
If you effect a transaction at a merchant that settles in a currency
other than U.S. dollars, Mastercard International will convert the

